App. 1
United States Court of Appeals
for the Eighth Circuit
-----------------------------------------------------------------------

No. 18-2617
-----------------------------------------------------------------------

Charles Jackson
Plaintiff - Appellant
v.
Billy D. Stair, III, individually and in his official
capacity with Jacksonville Police Department;
Jacksonville Arkansas, City of;
Jacksonville Police Department
Defendants - Appellees
-----------------------------------------------------------------------

Appeal from United States District Court for the
Eastern District of Arkansas – Little Rock
-----------------------------------------------------------------------

Submitted: November 8, 2019
Filed: December 3, 2019
-----------------------------------------------------------------------

Before ERICKSON, WOLLMAN, and GRASZ, Circuit
Judges.
-----------------------------------------------------------------------

ERICKSON, Circuit Judge.
Charles Jackson brought an action for damages
under 42 U.S.C. § 1983, alleging various constitutional
violations against the City of Jacksonville, Arkansas,

App. 2
the Jacksonville Police Department, and Jacksonville
Police Officer Billy D. Stair, III, individually and in his
official capacity, after Jackson was detained and tased
by Officer Stair as part of an arrest. The district court
granted summary judgment in favor of defendants,
and Jackson appealed. In an earlier opinion, we affirmed in part, reversed in part, and remanded to the
district court. See Jackson v. Stair, 938 F.3d 966 (8th
Cir. 2019). We subsequently vacated that opinion and
granted a petition for rehearing, to clarify our decision
in light of this court’s recent holdings in Kelsay v.
Ernst, 933 F.3d 975 (8th Cir. 2019) (en banc), and
Rudley v. Little Rock Police Dep’t, 935 F.3d 651 (8th
Cir. 2019). Our opinion today recites those portions of
our earlier decision for which the substance has not
changed. We issue a new, clarifying analysis on the excessive force and qualified immunity claims involving
Officer Stair. For the reasons stated below, we again affirm in part, reverse in part, and remand.
I.
On July 23, 2013, Jacksonville Police Department
(JPD) officers were dispatched to a dispute in progress
at a local business, Vaughn Tire. The dispute arose because Jackson believed that Vaughn Tire had damaged
a wheel lug during the course of a repair of Jackson’s
dump truck. Officer Stair was the first to respond on
the scene, where he found Jackson walking with

App. 3
another man. Video evidence1 shows that Officer Stair
asked, “What’s going on guys?” In response, Jackson,
who was obviously quite agitated, began to yell and
point toward another group of men. Officer Stair instructed Jackson to relax, and Jackson replied, pointing at one of the men, “Get him, and I’m gonna relax.”
Officer Stair directed Jackson to go stand by the patrol
car. Jackson began to comply, still yelling, when Officer
Stair told him to keep his hands out of his pockets.
Jackson reached his left hand into his pocket and
stopped immediately in front of Officer Stair to shout
that he did not have anything in his pockets. Officer
Stair ordered Jackson to turn around. Jackson got
louder and did not comply.
Officer Stair pulled out his Taser, pointed it at
Jackson, and again ordered Jackson to turn around, or
he would be tased. More yelling and pointing ensued
from Jackson – at one point Jackson shouted: “You tase
me and see what happens.” Officer Stair ordered Jackson to turn around five more times before Jackson began to comply. Officer Stair told Jackson to put his
hands up, and he did, but he was still facing Officer
Stair. Officer Stair again ordered Jackson to turn
around, and Jackson did so with his hands in the air,
but Jackson continued to yell, asking for Officer Stair’s
badge number and threatening to file a complaint with
his supervisor.

1

The record contains video evidence from the patrol car dash
camera, and from a camera mounted on Officer Stair’s Taser.

App. 4
Another officer, Kenneth Harness, approached
Jackson and attempted to handcuff him. Jackson put
his hands behind his back, and then he stated: “Don’t
hurt my arm.” Jackson turned around to face Officer
Harness and raised his right fist toward the officer’s
head. Officer Stair immediately deployed his Taser,
and Jackson fell to the ground, kicking his legs. Moments later, and without another warning, Officer
Stair deployed his Taser a second time. Officer Stair
then ordered Jackson to turn on his stomach or he
would be tased again. Officer Stair repeated the order,
but Jackson rose to one knee, in the direction of Officer
Stair. Officer Stair deployed his Taser a third time.
Jackson finally complied with the order to lie on his
stomach, and Officer Harness handcuffed him. Jackson
was arrested for disorderly conduct.
Jackson filed a complaint under 42 U.S.C. § 1983
against Officer Stair, in his individual and official capacities, the City of Jacksonville (City), and the JPD,
alleging that his constitutional rights were violated
during the tasing incident.2 The district court granted
summary judgment in favor of the defendants, and
Jackson filed a timely notice of appeal.
The record contains copies of the City’s Taser policy and evidence of Officer Stair’s completion of Taserspecific and general law enforcement trainings upon
his hiring. The record also includes documentation of
2

The complaint also alleged violations of the Arkansas Civil
Rights Act and claimed that Officer Stair’s conduct amounted to
a felony under Arkansas law, entitling him to damages. Those allegations are not relevant to this appeal.

App. 5
the JPD’s “Use of Force Review” of the tasing incident
at issue here. Following that investigation, Officer
Stair received a written warning and additional useof-force training.
II.
We review de novo a district court order granting
summary judgment, viewing the evidence in the light
most favorable to Jackson, and drawing all reasonable
inferences in his favor. Schoelch v. Mitchell, 625 F.3d
1041, 1045 (8th Cir. 2010). Summary judgment is appropriate when “there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a).
We note at the outset that Jackson failed to make
any meaningful argument on appeal regarding his
claims against the JPD. Those claims are therefore
waived. Ahlberg v. Chrysler Corp., 481 F.3d 630, 634
(8th Cir. 2007). Likewise, the complaint alleged violations of the First, Fourth, Fifth, Eighth, and Fourteenth Amendments. However, as noted by the district
court, the Fifth Amendment applies only to the federal
government or federal actions and does not apply to
state and municipality actors as alleged here, Barnes
v. City of Omaha, 574 F.3d 1003, 1005 n.2 (8th Cir.
2009); the Eighth Amendment applies only to convicted prisoners, Hott v. Hennepin County, 260 F.3d
901, 905 (8th Cir. 2001); and the Fourteenth Amendment does not apply to excessive force claims involving
arrests, which are appropriately reviewed under a

App. 6
Fourth Amendment analysis, Graham v. Connor, 490
U.S. 386, 394-95, 109 S.Ct. 1865, 104 L.Ed.2d 443
(1989). Accordingly, only the First and Fourth Amendment claims, and the claims against the City, are relevant here.
A.

Claims Against the City

Jackson lodges several claims against the City of
Jacksonville, including an official-capacity claim
against Officer Stair. Jackson argues that the district
court erred in granting summary judgment in favor of
the City, because Officer Stair’s conduct during the tasing incident was consistent with a City policy, custom,
or practice, and because the City had been deliberately
indifferent to Officer Stair’s conduct. We disagree.
A municipality may be held liable for a constitutional violation under section 1983 if the violation resulted from “(1) an ‘official municipal policy,’ (2) an
unofficial `custom,’ or (3) a deliberately indifferent failure to train or supervise.” Corwin v. City of Independence, MO., 829 F.3d 695, 699 (8th Cir. 2016) (citations
omitted). See also Monell v. Dep’t of Soc. Servs., 436
U.S. 658, 690-91, 98 S.Ct. 2018, 56 L.Ed.2d 611 (1978);
Mick v. Raines, 883 F.3d 1075, 1079-80 (8th Cir. 2018).
Here, Jackson has not presented any evidence to
suggest that the City created, adopted, or supported
any policy or custom that would demonstrate municipal liability. To the contrary, the City has submitted
copies of its relevant policies and training manuals,
and the City has shown that Officer Stair received

App. 7
specific Taser training on top of his general law enforcement training. Moreover, the City investigated
the tasing incident after the fact; as a result, Officer
Stair received a written warning, and he was required
to undergo additional use-of-force training.
Because Jackson fails to provide the evidence necessary to support his claims of municipal liability, the
City is entitled to summary judgment.
B.

First Amendment Claim Against Officer Stair

Likewise, summary judgment in favor of Officer
Stair on Jackson’s First Amendment claim is appropriate. The First Amendment protects freedom of speech,
and Jackson argues that Officer Stair violated his First
Amendment rights by detaining him based on his
speech. While the video evidence clearly shows that
Jackson was loud and profane during the minutes surrounding the tasing incident, it does not necessarily
follow that his arrest was grounded in an effort by Officer Stair to restrain Jackson’s right to express himself. “[W]hen ‘speech’ and ‘nonspeech’ elements are
combined in the same course of conduct, a sufficiently
important governmental interest in regulating the
nonspeech element can justify incidental limitations
on First Amendment freedoms.” United States v.
O’Brien, 391 U.S. 367, 376, 88 S.Ct. 1673, 20 L.Ed.2d
672 (1968). Otherwise, any foul-mouthed citizen could
bring a constitutional claim against an arresting officer. In this case, there is no evidence to support a First

App. 8
Amendment claim, and summary judgment was therefore appropriate.
C.

Excessive Force Claims Against Officer
Stair and Qualified Immunity

Jackson also claims that Officer Stair used excessive force during the tasings in violation of his constitutional rights. Officer Stair responds in the first
instance that no excessive force violation occurred. Officer Stair also argues that the doctrine of qualified immunity shields him from any potential liability if
excessive force did occur. This case requires us to revisit our jurisprudence governing qualified immunity
and the use of force. We have recognized that these
cases rely on a fact-intensive analysis, and this case is
no exception. Kelsay, 933 F.3d at 980 (quoting Kisela v.
Hughes, ___ U.S. ___, 138 S.Ct. 1148, 1153, 200 L.Ed.2d
449 (2018)) (per curiam).
The Fourth Amendment guarantees each citizen a
right to be free from unreasonable searches or seizures.
Where, as here, an excessive force claim is made
against a law enforcement officer related to conduct involving an arrest, the Supreme Court has made clear
that the conduct should be analyzed under an objective
reasonableness standard. Graham, 490 U.S. at 394-96.
Such an analysis requires the “careful balancing of ‘the
nature and quality of the intrusion on the individual’s
Fourth Amendment interests’ against the countervailing governmental interests at stake.” Id. at 396 (quoting Tennessee v. Garner, 471 U.S. 1, 8, 105 S.Ct. 1694,

App. 9
85 L.Ed.2d 1 (1985)). Relevant considerations include
the severity of the crime at issue, whether the suspect
posed an immediate safety threat, and whether he was
actively resisting arrest or attempting to flee. Id. See
also Henderson v. Munn, 439 F.3d 497, 502 (8th Cir.
2006). We judge the relevant facts from the perspective
of a reasonable officer on the scene, not with 20/20
hindsight vision. Carpenter v. Gage, 686 F.3d 644, 649
(8th Cir. 2012). “[T]he question is whether the officers’
actions are ‘objectively reasonable’ in light of the facts
and circumstances confronting them. . . .” Graham,
490 U.S. at 397.
Qualified immunity protects a government official
from liability in a section 1983 action, unless the official’s conduct violates a clearly established constitutional or statutory right of which a reasonable person
would have known. Harlow v. Fitzgerald, 457 U.S. 800,
818, 102 S.Ct. 2727, 73 L.Ed.2d 396 (1982). The court
must follow a two-step inquiry in a qualified immunity
analysis: “(1) whether the facts shown by the plaintiff
make out a violation of a constitutional or statutory
right, and (2) whether that right was clearly established at the time of the defendant’s alleged misconduct.” Brown v. City of Golden Valley, 574 F.3d 491, 496
(8th Cir. 2009). The first step of the analysis, therefore,
requires us to consider whether a constitutional violation (here, excessive force) in fact occurred. If so, qualified immunity does not shield the officer from liability
if the constitutional right was clearly established at
the time of the violation.

App. 10
A right is clearly established if its contours are
“sufficiently clear that a reasonable official would understand that what he is doing violates that right.”
Hope v. Pelzer, 536 U.S. 730, 739, 122 S.Ct. 2508, 153
L.Ed.2d 666 (2002). The relevant question is whether
a reasonable officer would have fair warning that his
conduct was unlawful. Brown, 574 F.3d at 499. We look
for “either ‘controlling authority’ or a ‘robust consensus
of cases of persuasive authority’ that ‘placed the statutory or constitutional question beyond debate’ at the
times of the alleged violation.” Kelsay, 933 F.3d at 979
(quoting Ashcroft v. al-Kidd, 563 U.S. 731, 741-42, 131
S.Ct. 2074, 179 L.Ed.2d 1149 (2011)). “We do not require a case directly on point, but existing precedent
must have placed the statutory or constitutional question beyond debate.” al-Kidd, 563 U.S. at 741.
A review of our precedent on this topic confirms,
on the one hand, the inherent difficulty of analyzing
these fact-intensive cases and, on the other hand, a
true attempt to adjudicate them within the guidance
of Graham and its progeny. 490 U.S. at 396 (excessive
force analysis “requires careful attention to the facts
and circumstances of each particular case, including
the severity of the crime at issue, whether the suspect
poses an immediate threat to the safety of the officers
or others, and whether he is actively resisting arrest or
attempting to evade arrest by flight”). To that end, we
have stated: “[I]t is clearly established that force is
least justified against nonviolent misdemeanants who
do not flee or actively resist arrest and pose little or
no threat to the security of the officers or the public.”

App. 11
Brown, 574 F.3d at 499. We have also held that qualified immunity protects law enforcement from liability
where the suspect was non-compliant and resisted arrest, Carpenter, 686 F.3d at 649-50, or ignored commands from law enforcement, Ehlers v. City of Rapid
City, 846 F.3d 1002, 1011 (8th Cir. 2017). Where law
enforcement was trying to control a rapidly escalating
situation, we have held that the use of force was not
unreasonable. See Rudley, 935 F.3d at 654; Cook v.
City of Bella Villa, 582 F.3d 840, 851 (8th Cir. 2009).
Thus, our challenge in these cases is to look carefully
at the facts from the standpoint of a reasonable officer
and determine whether the force was excessive, and –
if so – whether the officer had fair warning that his
actions violated a clearly established constitutional
right.
Here, Officer Stair tased Jackson three times. At
the beginning of their encounter, Jackson was aggressive and non-compliant in response to Officer Stair’s
directives. Jackson ignored multiple orders to turn
around, arguing with Officer Stair and even threatening him. When Officer Harness attempted to handcuff
Jackson, Jackson turned around toward Officer Harness and raised his right fist near Officer Harness’s
head. At that point, Officer Stair deployed his Taser. A
reasonable officer in Officer Stair’s position could have
viewed Jackson’s actions as threatening, resisting arrest, and endangering the safety of an officer. The evidence in the record therefore demonstrates that the
first tasing was objectively reasonable.

App. 12
The second tasing is a different story. When the
electric probes from the first tasing struck Jackson, he
immediately fell to the ground. Before Jackson could
respond, and without warning, Officer Stair again deployed his Taser. At the time of this second tasing,
Jackson did not appear to pose a threat to law enforcement, resist arrest, or flee – he was on his back, writhing on the ground. Based on the Taser-mounted video,
Jackson did not have time to react with compliance or
continued resistance before the second tasing was deployed. His physical body was still reeling from the initial tasing. Officer Stair argued that he perceived
Jackson to kick his legs out and turn his body as if to
confront the officers again. The video footage, however,
refutes this statement. The video clearly shows that
Jackson was several feet away from the nearest officer,
unable to pose a threat from his position on the ground.
The district court ruled that Officer Stair’s conduct as a whole was reasonable without considering
whether the second tasing could be a constitutional violation on its own. See Blazek v. City of Iowa City, 761
F.3d 920, 925 (8th Cir. 2014) (separating each “discrete
use of force for consideration under the Fourth Amendment”). See also Rudley, 935 F.3d at 653; Smith v. Conway County, 759 F.3d 853, 860-61 (8th Cir. 2014) (even
if the initial tasing of detainee was justified because he
had just kicked a guard, second tasing would be unreasonable under the Eighth Amendment if detainee was
no longer acting aggressively, no longer posed any immediate security concern, and was trying to comply
with guard’s orders). Because we believe the second

App. 13
tasing stands on its own, the district court erred by not
analyzing it as a separate use of force.3 In light of the
video footage depicting the quick succession of the
tasings and the dispute as to whether Jackson was resisting the officers or posing a threat at the time of the
second tasing, we find that there is a genuine issue of
material fact as to whether the second tasing
amounted to excessive force. We hold that summary
judgment was granted in error with regard to the second tasing.
Officer Stair argues that qualified immunity
shields him from any potential liability related to the
second tasing because Jackson did not have a clearly
established right to [be free from] excessive force at the
time. In support of this argument, Officer Stair cites to
our recent decisions in Kelsay and Rudley.
In Kelsay, an en banc panel of this court held that
qualified immunity protected an officer from liability
in a case involving a non-compliant suspect who ignored instructions and walked away from the arresting
officer, even though the suspect was not actively resisting arrest or posing a danger. 933 F.3d at 980. The district court had rejected the qualified immunity
defense, finding that the officer violated a clearly
3

The dissent states that, because the second tasing happened quickly, a “clearly punctuated interim of compliance” did
not occur. We agree that Officer Stair acted with too much speed
and without providing Jackson a chance to comply, but we also
believe that it was unreasonable for Officer Stair to effectively
“kick him while he was down” without considering whether a second tasing was excessive.

App. 14
established right, but this court disagreed and distinguished the cases relied on by the district court, because of the unique facts at issue in Kelsay. Id. at 98081. “Decisions concerning the use of force against
suspects who were compliant or engaged in passive resistance are insufficient to constitute clearly established law that governs an officer’s use of force against
a suspect who ignores a command and walks away.” Id.
at 980. Unlike the plaintiff in Kelsay, however, at the
time of the second tasing, Jackson did not ignore law
enforcement commands; in fact, no commands were
given. And, Jackson was writhing on the ground, physically unable to walk away or flee. Officer Stair’s successive tasing of Jackson, when Jackson was several
feet away from the nearest officer, was unnecessary
and, in a word, excessive. Jackson did not appear capable of posing a danger to law enforcement, he was not
actively resisting arrest, and he was not fleeing.
Likewise, in Rudley, this court determined that
the evidence showed an ongoing, physical altercation
“involving aggressive behavior and a ‘chaotic and combative’ scene” in which the plaintiff was actively resisting arrest. 935 F.3d at 654. Under those circumstances,
Rudley was “more akin to the situation in Kelsay,” and
law enforcement was justified in tasing Rudley to keep
control of the situation and avoid escalation. Id. “[T]he
scene was a tumultuous one involving seemingly aggressive and noncompliant behavior, circumstances
which we have previously held rendered officers’ uses of
tasers reasonable.” Id. In the case before us, Jackson
had been aggressive, and at first he was non-compliant.

App. 15
On that basis, we have determined that the first tasing
was objectively reasonable. However, once Officer Stair
deployed his Taser, Jackson was reduced to the ground,
unable to resist arrest or flee. No reasonable officer
would have believed that the Fourth Amendment supported an additional, successive use of force.4
Some of the very cases distinguished by this court
in Kelsay and Rudley supply us here with a clearly established right against excessive force. In 2013, when
the tasings of Jackson occurred, there was sufficient
case law to establish that a misdemeanor suspect in
Jackson’s position at the time of the second tasing –
non-threatening, non-fleeing, non-resisting – had a
clearly established right to be free from excessive force.
See Brown, 574 F.3d at 496-97 (excessive force where
misdemeanor suspect “posed at most a minimal safety
threat” and “was not actively resisting arrest or attempting to flee”); Shannon v. Koehler, 616 F.3d 855,
862-63 (8th Cir. 2010) (more than de minimis force
amounted to excessive force against a suspect who was
not suspected of a serious crime, was not threatening,
and was not resisting arrest); Montoya v. City of Flandreau, 669 F.3d 867, 871-72 (8th Cir. 2012) (excessive
force found where disorderly conduct suspect was 1015 feet from law enforcement and did not pose a
threat). Moreover, we have held that “general constitutional principles against excessive force” are enough to
create a clearly established right and to put a reasonable officer on notice that a particular tasing was
4

Indeed, an internal department review of the tasing incident resulted in a reprimand of Officer Stair.

App. 16
excessive. See Shekleton v. Eichenberger, 677 F.3d 361,
367 (8th Cir. 2012). We believe it is axiomatic that
Jackson had a clearly established right against excessive force at the time of the second tasing.
The third tasing occurred after Officer Stair gave
several clear orders for Jackson to stop moving and lay
down on his stomach, or he would be tased. Afterward,
Jackson moved in the direction of Officer Stair, and he
rose to his knee in an apparent attempt to get off the
ground. Officer Stair then deployed his Taser for the
third and final time before Jackson complied with his
demands and was arrested. While we are skeptical
whether Jackson was physically capable of posing a
danger to law enforcement at that very instance, a reasonable officer in Officer Stair’s position could have
perceived Jackson to be resisting arrest and could have
feared for his safety. Based on our review of the record,
we conclude the third tasing was objectively reasonable.
III.
In the instant case, Officer Stair tased Jackson
three times. The district court ruled that Officer Stair
used a reasonable amount of force to subdue Jackson,
considering the officer’s conduct as a whole. The court
erred by not considering and analyzing each tasing individually. We find the first and third tasings were objectively reasonable, and no Fourth Amendment
violation occurred. As to the second tasing, we find
there are genuine issues of material fact regarding

App. 17
whether Officer’s Stairs [sic] use of force was excessive.
If the second tasing amounted to excessive force, then
Officer Stair is not entitled to qualified immunity.
Jackson failed to present sufficient evidence to establish a First Amendment claim against Officer Stair or
to establish municipal liability against the City. We affirm in part, reverse in part, and remand to the district
court for proceedings consistent with this opinion.

WOLLMAN, Circuit Judge, concurring and dissenting.
I agree with the court that Officer Stair’s first and
third tasings were objectively reasonable and that
Jackson’s First and Fourth Amendment and municipal
liability claims are without merit.
When viewed in light of his earlier manifestation
of unceasing, rage-filled verbal and physical conduct,
Jackson’s momentary post-tasered position on the
ground does not justify considering it as a clearly
punctuated interim of compliance with Officer Stair’s
earlier commands, and thus the second tasing was not
objectively unreasonable. Granted that Jackson had
not at that point attempted to rise from the ground, his
earlier-expressed threatened use of force against Officer Harness, when coupled with the nearly hysterical
tone of his voice throughout his interaction with Stair
and others nearby, justified the continued application
of the taser. It may appear from our chambers-viewed
observation of the entire encounter to have been a
too-hasty application, but given Jackson’s earlier

App. 18
pretasing arm-waving, rant-filled anger and his reluctance to comply with Stair’s several earlier-expressed
commands and warnings, his momentarily supine position on the ground was hardly a guarantee of a nolonger aggressive subject, as was the case of the medical assistance-seeking detainee in Smith v. Conway. In
a word, then, although Officer Stair’s quickly applied
application following Jackson’s initial fall to the
ground may have been ill-advised, I do not believe that
it was objectively unreasonable in the circumstances,
and so I respectfully dissent from the court’s decision
to remand the case for a further review of that issue.

App. 19
United States Court of Appeals
For the Eighth Circuit
-----------------------------------------------------------------------

No. 18-2617
-----------------------------------------------------------------------

Charles Jackson
Plaintiff - Appellant
v.
Billy D. Stair, III, individually and in his official
capacity with Jacksonville Police Department;
Jacksonville Arkansas, City of;
Jacksonville Police Department
Defendants - Appellees
-----------------------------------------------------------------------

Appeal from United States District Court for the
Eastern District of Arkansas – Little Rock
-----------------------------------------------------------------------

Submitted: June 6, 2019
Filed: September 12, 2019
-----------------------------------------------------------------------

Before ERICKSON, WOLLMAN, and GRASZ, Circuit
Judges.
-----------------------------------------------------------------------

ERICKSON, Circuit Judge.
Charles Jackson brought an action for damages
under 42 U.S.C. § 1983, alleging various constitutional
violations against the City of Jacksonville, Arkansas,

App. 20
the Jacksonville Police Department, and Jacksonville
Police Officer Billy D. Stair, III, individually and in his
official capacity, after Jackson was detained and tased
by Officer Stair as part of an arrest. The district court
granted summary judgment in favor of defendants,
and Jackson appealed. For the reasons stated below, we
affirm in part, reverse in part, and remand.
I.
On July 23, 2013, Jacksonville Police Department
(JPD) officers were dispatched to a dispute in progress
at a local business, Vaughn Tire. The dispute arose because Jackson believed that Vaughn Tire had damaged
a wheel lug during the course of a repair of Jackson’s
dump truck. Officer Stair was the first to respond on
the scene, where he found Jackson walking with another man. Video evidence1 shows that Officer Stair
asked, “What’s going on guys?” In response, Jackson,
who was obviously quite agitated, began to yell and
point toward another group of men. Officer Stair instructed Jackson to relax, and Jackson replied, pointing at one of the men, “Get him, and I’m gonna relax.”
Officer Stair directed Jackson to go stand by the patrol
car. Jackson began to comply, still yelling, when Officer
Stair told him to keep his hands out of his pockets.
Jackson reached his left hand into his pocket and
stopped immediately in front of Officer Stair to shout
that he did not have anything in his pockets. Officer
1

The record contains video evidence from the patrol car dash
camera, and from a camera mounted on Officer Stair’s Taser.

App. 21
Stair ordered Jackson to turn around. Jackson got
louder and did not comply.
Officer Stair pulled out his Taser, pointed it at
Jackson, and again ordered Jackson to turn around, or
he would be tased. More yelling and pointing ensued
from Jackson – at one point Jackson shouted: “You tase
me and see what happens.” Officer Stair ordered Jackson to turn around five more times before Jackson began to comply. Officer Stair told Jackson to put his
hands up, and he did, but he was still facing Officer
Stair. Officer Stair again ordered Jackson to turn
around, and Jackson did so with his hands in the air,
but Jackson continued to yell, asking for Officer Stair’s
badge number and threatening to file a complaint with
his supervisor.
Another officer, Kenneth Harness, approached
Jackson and attempted to handcuff him. Jackson put
his hands behind his back, and then he stated: “Don’t
hurt my arm.” Jackson turned around to face Officer
Harness and raised his right fist toward the officer’s
head. Officer Stair immediately deployed his Taser,
and Jackson fell to the ground, kicking his legs. Moments later, and without another warning, Officer
Stair deployed his Taser a second time. Officer Stair
then ordered Jackson to turn on his stomach or he
would be tased again. Officer Stair repeated the order,
but Jackson rose to one knee, in the direction of Officer
Stair. Officer Stair deployed his Taser a third time.
Jackson finally complied with the order to lie on his
stomach, and Officer Harness handcuffed him. Jackson
was arrested for disorderly conduct.

App. 22
Jackson filed a complaint under 42 U.S.C. § 1983
against Officer Stair, in his individual and official capacities, the City of Jacksonville (City), and the JPD,
alleging that his constitutional rights were violated
during the tasing incident.2 The district court granted
summary judgment in favor of the defendants, and
Jackson filed a timely notice of appeal.
The record contains copies of the City’s Taser policy and evidence of Officer Stair’s completion of Taserspecific and general law enforcement trainings upon
his hiring. The record also includes documentation of
the JPD’s “Use of Force Review” of the tasing incident
at issue here. Following that investigation, Officer
Stair received a written warning and additional useof-force training.
II.
We review de novo a district court order granting
summary judgment, viewing the evidence in the light
most favorable to Jackson, and drawing all reasonable
inferences in his favor. Schoelch v. Mitchell, 625 F.3d
1041, 1045 (8th Cir. 2010). Summary judgment is appropriate when “there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a).

2

The complaint also alleged violations of the Arkansas Civil
Rights Act and claimed that Officer Stair’s conduct amounted to
a felony under Arkansas law, entitling him to damages. Those
allegations are not relevant to this appeal.

App. 23
We note at the outset that Jackson failed to make
any meaningful argument on appeal regarding his
claims against the JPD. Those claims are therefore
waived. Ahlberg v. Chrysler Corp., 481 F.3d 630, 634
(8th Cir. 2007). Likewise, the complaint alleged violations of the First, Fourth, Fifth, Eighth, and Fourteenth Amendments. However, as noted by the district
court, the Fifth Amendment applies only to the federal
government or federal actions and does not apply to
state and municipality actors as alleged here, Barnes
v. City of Omaha, 574 F.3d 1003, 1005 n.2 (8th Cir.
2009); the Eighth Amendment applies only to convicted prisoners, Hott v. Hennepin County, 260 F.3d
901, 905 (8th Cir. 2001); and the Fourteenth Amendment does not apply to excessive force claims involving
arrests, which are appropriately reviewed under a
Fourth Amendment analysis, Graham v. Connor, 490
U.S. 386, 394-95 (1989). Accordingly, only the First and
Fourth Amendment claims, and the claims against the
City, are relevant here.
A.

Claims Against the City

Jackson lodges several claims against the City of
Jacksonville, including an official-capacity claim
against Officer Stair. Jackson argues that the district
court erred in granting summary judgment in favor of
the City, because Officer Stair’s conduct during the tasing incident was consistent with a City policy, custom,
or practice, and because the City had been deliberately
indifferent to Officer Stair’s conduct. We disagree.

App. 24
A municipality may be held liable for a constitutional violation under section 1983 if the violation resulted from “(1) an ‘official municipal policy,’ (2) an
unofficial ‘custom,’ or (3) a deliberately indifferent failure to train or supervise.” Corwin v. City of Independence, MO., 829 F.3d 695, 699 (8th Cir. 2016) (citations
omitted). See also Monell v. Dep’t of Social Servs. of the
City of New York, 436 U.S. 658, 690-91 (1978); Mick v.
Raines, 883 F.3d 1075, 1079-80 (8th Cir. 2018).
Here, Jackson has not presented any evidence to
suggest that the City has created, adopted, or supported any policy or custom that would demonstrate
municipal liability. To the contrary, the City has submitted copies of its relevant policies and training manuals, and the City has shown that Officer Stair
received specific Taser training on top of his general
law enforcement training. Moreover, the City investigated the tasing incident after the fact; as a result,
Officer Stair received a written warning, and he was
required to undergo additional use-of-force training.
Because Jackson fails to provide the evidence necessary to support his claims of municipal liability, the
City is entitled to summary judgment as to Jackson’s
claims.
B.

First Amendment Claim Against Officer Stair

Likewise, summary judgment in favor of Officer
Stair on Jackson’s First Amendment Claim is appropriate. The First Amendment protects freedom of
speech, and Jackson argues that Officer Stair violated

App. 25
his First Amendment rights by detaining him based on
his speech. While the video evidence clearly shows that
Jackson was loud and profane during the minutes surrounding the tasing incident, it does not necessarily
follow that his arrest was grounded in an effort by Officer Stair to restrain Jackson’s right to express himself. “[W]hen ‘speech’ and ‘nonspeech’ elements are
combined in the same course of conduct, a sufficiently
important governmental interest in regulating the
nonspeech element can justify incidental limitations
on First Amendment freedoms.” U.S. v. O’Brien, 391
U.S. 367, 376 (1968). Otherwise, any foul-mouthed
citizen could bring a constitutional claim against an
arresting officer. In this case, there is no evidence to
support a First Amendment claim, and summary judgment was therefore appropriate.
C.

Excessive Force Claims Against Officer Stair

Jackson also claims that Officer Stair used excessive force during the tasings in violation of his constitutional rights. The Fourth Amendment guarantees
each citizen a right to be free from unreasonable
searches or seizures. Where, as here, an excessive force
claim is made against a law enforcement officer related
to conduct involving an arrest, the Supreme Court has
made clear that the conduct should be analyzed under
an objective reasonableness standard. Graham, 490
U.S. at 394-96. Such an analysis requires the “careful
balancing of ‘the nature and quality of the intrusion on
the individual’s Fourth Amendment interests’ against
the countervailing governmental interests at stake.”

App. 26
Id. at 396 (quoting Tennessee v. Garner, 471 U.S. 1, 8
(1985)). Relevant considerations include the severity of
the crime at issue, whether the suspect posed an immediate safety threat, and whether he was actively resisting arrest or attempting to flee. Id. See also
Henderson v. Munn, 439 F.3d 497, 502 (8th Cir. 2006).
We judge the relevant facts from the perspective of a
reasonable officer on the scene, not with 20/20 hindsight vision. Carpenter v. Gage, 686 F.3d 644, 649 (8th
Cir. 2012). “[T]he question is whether the officers’ actions are ‘objectively reasonable’ in light of the facts
and circumstances confronting them. . . .” Graham,
490 U.S. at 397.
Here, Jackson was aggressive and non-compliant
in response to Officer Stair’s directives. Jackson ignored multiple orders to turn around, arguing with
Officer Stair and even threatening him. When Officer
Harness attempted to handcuff Jackson, Jackson
turned around toward Officer Harness and raised his
right fist near Officer Harness’s head. At that point,
Officer Stair deployed his Taser. A reasonable officer
in Officer Stair’s position could have viewed Jackson’s
actions as threatening, resisting arrest, and endangering the safety of an officer. The evidence in the record
demonstrates that the first tasing was objectively reasonable.
The second tasing is a different story. When the
electric probes from the first tasing struck Jackson, he
fell to the ground. Only moments later, and without
warning, Officer Stair again deployed his Taser. At the
time of this second tasing, Jackson did not appear to

App. 27
pose a threat to law enforcement, resist arrest, or flee
– he was on his back, on the ground. Based on the
Taser-mounted video, Jackson did not have time to
show compliance or continued resistance before the
second tasing was deployed. Officer Stair argued that
he perceived Jackson to kick his legs out and turn his
body as if to confront the officers again. The video footage, however, shows that Jackson was several feet
away from the nearest officer, unable to pose a threat
from his position on the ground.
The district court ruled that Officer Stair’s conduct as a whole was reasonable without considering
whether the second tasing could be a constitutional violation on its own. See Smith v. Conway County, 759
F.3d 853, 860-61 (8th Cir. 2014) (even if the initial tasing of detainee was justified because he had just kicked
a guard, second tasing would be unreasonable if detainee was no longer acting aggressively, no longer
posed any immediate security concern, and was trying
to comply with guard’s orders). In light of the video
footage depicting the quick succession of the tasings
and dispute as to whether Jackson was resisting the
officers or posing a threat at the time of the second tasing, we find that there is a genuine issue of material
fact as to whether the second tasing amounted to excessive force.
The third tasing occurred after Officer Stair gave
several clear orders for Jackson to stop moving and lay
down on his stomach, or he would be tased. Afterward,
Jackson moved in the direction of Officer Stair and
rose to his knee in an apparent attempt to get off the

App. 28
ground. Officer Stair then deployed his Taser for the
third and final time before Jackson complied with his
demands and was arrested. A reasonable officer in Officer Stair’s position could have perceived Jackson to
be resisting arrest and could have feared for his safety.
Based on our review of the record, we conclude the
third tasing was objectively reasonable.
D.

Qualified Immunity

Officer Stair argues that the doctrine of qualified
immunity shields him from any liability. Qualified immunity protects a government official from liability in
a section 1983 action, unless the official’s conduct violates a clearly established constitutional or statutory
right of which a reasonable person would have known.
Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982). The
court must follow a two-step inquiry in a qualified immunity analysis: “(1) whether the facts shown by the
plaintiff make out a violation of a constitutional or
statutory right, and (2) whether that right was clearly
established at the time of the defendant’s alleged misconduct.” Brown v. City of Golden Valley, 574 F.3d 491,
496 (8th Cir. 2009). A right is clearly established if its
contours are “sufficiently clear that a reasonable official would understand that what he is doing violates
that right.” Hope v. Pelzer, 536 U.S. 730, 739 (2002). The
relevant question is whether a reasonable officer
would have fair warning that his conduct was unlawful. Brown, 574 F.3d at 499.

App. 29
As explained above, because the first and third
tasings were objectively reasonable, Jackson cannot
show a violation of his constitutional rights. The second tasing, however, presents a closer question. If
Officer Stair used excessive force during the second
tasing, then qualified immunity will protect him from
liability only if Jackson’s constitutional rights were not
clearly established at the time of the second tasing.
When Officer Stair tased Jackson, however, it was wellsettled law that the use of force against a non-violent
detainee who was not actively fleeing or resisting arrest, or posing a security threat, was unlawful. Id. at
499-500; see also Smith, 759 F.3d at 860-61. If the second tasing amounted to excessive force, then Officer
Stair is not entitled to qualified immunity.
III.
In the instant case, Officer Stair tased Jackson
three times. The district court ruled that Officer Stair
used a reasonable amount of force to subdue Jackson,
considering the officer’s conduct as a whole. The court
erred by not considering and analyzing each tasing
individually. We find the first and third tasings were
objectively reasonable, and no Fourth Amendment violation occurred. As to the second tasing, we find there
are genuine issues of material fact regarding whether
Officer’s Stairs [sic] use of force was excessive. Jackson
failed to present sufficient evidence to establish a First
Amendment claim against Officer Stair or to establish
municipal liability against the City. We affirm in part,

App. 30
reverse in part, and remand to the district court for
proceedings consistent with this opinion.

WOLLMAN, Circuit Judge, concurring and dissenting.
I agree with the court that Officer Stair’s first and
third tasings were objectively reasonable and that
Jackson’s First and Fourth Amendment and municipal
liability claims are without merit.
When viewed in light of his earlier manifestation
of unceasing, rage-filled verbal and physical conduct,
Jackson’s momentary post-tasered position on the
ground does not justify considering it as a clearly punctuated interim of compliance with Officer Stair’s earlier commands, and thus the second tasing was not
objectively unreasonable. Granted that Jackson had
not at that point attempted to rise from the ground,
his earlier-expressed threatened use of force against
Officer Harness, when coupled with the nearly hysterical tone of his voice throughout his interaction with
Stair and others nearby, justified the continued application of the Taser. It may appear from our chambersviewed observation of the entire encounter to have
been a too-hasty application, but given Jackson’s earlier pretasing arm-waving, rant-filled anger and his
reluctance to comply with Stair’s several earlierexpressed commands and warnings, his momentarily
supine position on the ground was hardly a guarantee
of a no-longer aggressive subject, as was the case of
the medical assistance-seeking detainee in Smith v.

App. 31
Conway. In a word, then, although Officer Stair’s
quickly applied application following Jackson’s initial
fall to the ground may have been ill-advised, I do not
believe that it was objectively unreasonable in the
circumstances, and so I respectfully dissent from the
court’s decision to remand the case for a further review
of that issue.

App. 32
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
-----------------------------------------------------------------------

No: 18-2617
-----------------------------------------------------------------------

Charles Jackson
Plaintiff - Appellant
v.
Billy D. Stair, III, individually and in his official
capacity with Jacksonville Police Department;
Jacksonville Arkansas, City of;
Jacksonville Police Department
Defendants - Appellees
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Appeal from U.S. District Court for the
Eastern District of Arkansas – Little Rock
(4:16-cv-00533-SWW)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

JUDGMENT
Before ERICKSON, WOLLMAN, and GRASZ, Circuit Judges.
This appeal from the United States District Court
was submitted on the record of the district court and
the briefs of the parties.
After consideration, it is hereby ordered and adjudged that the judgment of the district court in this
cause is affirmed in part and reversed in part and the

App. 33
case is remanded to the district court for proceedings
consistent with the opinion of this Court.
September 12, 2019
Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
__________________________
/s/ Michael E. Gans

App. 34
IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
WESTERN DIVISION
CHARLES JACKSON
PLAINTIFF
V.
BILLY D. STAIR, III, ET AL.
DEFENDANTS

*
*
* CASE NO.
* 4:16CV00533 SWW
*
*
*

OPINION AND ORDER
(Filed Mar. 12, 2018)
Plaintiff Charles Jackson (“Jackson”) brings this
action under 42 U.S.C. § 1983, claiming that Jacksonville police officer Billy Stair (“Stair”) used excessive
force against him. Jackson sues Stair in his individual
and official capacities, and he also names the City of
Jacksonville (the “City”) and the Jacksonville Police
Department as defendants. Before the Court are (1)
the City’s motion for summary judgment [ECF Nos. 19,
20, 21], Jackson’s response in opposition [ECF Nos. 33,
34, 35], and the City’s reply [ECF No. 40] and (2) Stair’s
motion for summary judgment [ECF Nos. 22, 23, 24],
Jackson’s response in opposition [ECF Nos. 28, 29, 30],
and Stair’s reply [ECF No. 40]. After careful consideration, and for reasons that follow, the Court grants
summary judgment in Defendants’ favor, and the case
is dismissed with prejudice.

App. 35
I.

Summary Judgment Standard

Summary judgment is appropriate when “the movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a). As a prerequisite to summary judgment, a moving party must
demonstrate ‘an absence of evidence to support the
non-moving party’s case.” Celotex Corp. v. Catrett, 477
U.S. 317, 325 (1986). Once the moving party has
properly supported its motion for summary judgment,
the non-moving party must “do more than simply show
there is some metaphysical doubt as to the material
facts.” Matsushita Elec. Indus. Co. v. Zenith Radio
Corp., 475 U.S. 574, 586 (1986)
The non-moving party may not rest on mere allegations or denials of his pleading but must come forward with ‘specific facts showing a genuine issue for
trial. Id. at 587. “[A] genuine issue of material fact exists if: (1) there is a dispute of fact; (2) the disputed
fact is material to the outcome of the case; and (3) the
dispute is genuine, that is, a reasonable jury could return a verdict for either party.” RSBI Aerospace, Inc. v.
Affiliated FM Ins. Co., 49 F.3d 399, 401 (8th Cir. 1995).
II.

Background

On July 23, 2013, Stair responded to a dispatch
call regarding a physical disturbance then in progress
at Vaughn Tire, a private business in Jacksonville. A
dash cam on Stair’s patrol car recorded the following

App. 36
events.1 Upon his arrival, Stair observed Jackson and
another man walking in the parking lot, with several
others following behind. Stair calmly asked, “What’s
going on guys,” and Jackson, who appeared very agitated, began walking toward Stair while yelling and
pointing toward another man. Stair told Jackson to relax, and Jackson shouted, “Get him, and I’ll relax.”
Stair instructed Jackson to stand by his patrol car and
to keep his hands out of his pockets. Jackson began
walking toward the patrol car, but he stopped immediately in front of Stair, and shouted, “I don’t have nothing in my pockets,” while putting his left hand in the
pocket of his shorts. Stair then ordered Jackson to turn
around, and he took his Taser from his belt. Stair’s
dash cam and his Taser camera recorded that Jackson
moved toward the patrol car, but he maintained an aggressive posture while facing Stair and yelling. Stair
again ordered Jackson to “turn around” and face the
front of the patrol car. Jackson failed to comply and
continued yelling, and Stair warned Jackson that if he
did not turn around, he would use his Taser. Jackson
turned around for a moment but immediately turned
his head toward Stair and continued yelling, asking for
Stair’s badge number and threatening to file a complaint against him. Stair repeatedly ordered Jackson
to turn around, and Stair continued to yell, curse, and
ignore Stair’s orders.

1

ECF No. 25. Defendant Stair submitted the dash cam video
in support of his motion for summary judgment, and Plaintiff
cites the video exhibit in opposition to summary judgment and
argues that the recording supports his claims.

App. 37
Another officer, Kenneth Harness (“Harness”), arrived at the scene and attempted to handcuff Jackson,
who continued yelling at the officers. At first, Jackson
appeared to put his hands behind his back and comply,
but he abruptly turned around and raised his right
arm, with a closed hand, toward Harness. Stair immediately deployed his Taser, striking Jackson, who fell to
the ground. Jackson rolled on to his side, then to his
back, while moving his legs and arms. Stair ordered
Jackson to “stop,” and he activated his Taser a second
time when Jackson failed to stop moving. Officers then
ordered Jackson to lie on his stomach, but Jackson began to stand up, which prompted Stair to activate his
Taser a third time. Jackson finally complied with orders to lie on his stomach, and Harness handcuffed
him. According to a related police report, the incident
ended with Jackson’s arrest for disorderly conduct.
On July 25, 2016, Jackson filed this lawsuit pursuant to 42 U.S.C. § 1983 and the Arkansas Civil Rights
Act (“ACRA”), charging that Stair and the City, violated
his constitutional rights. Jackson also claims that
Stair’s conduct amounted to a felony under Arkansas
law, entitling him to damages under Arkansas Code
§ 16-118-107(a).
III.

Stair’s Motion for Summary Judgment

In support of his motion for summary judgment,
Stair argues that he is entitled to qualified immunity
and that there are no genuine issues for trial.

App. 38
Qualified Immunity
Section 1983 provides a cause of action for constitutional deprivations caused by persons acting under
color of state law. However, the doctrine of qualified immunity shields government employees acting within
the scope of their duties from suit under § 1983 so long
as their conduct does not “violate clearly established
statutory or constitutional rights of which a reasonable
person would know.” Harlow v. Fitzgerald, 457 U.S.
800, 818 (1982).
Determining whether a defendant is entitled to
qualified immunity involves a two-step inquiry. The
first question is whether, taken in the light most favorable to the plaintiff, the facts show that the defendant’s
conduct violated a constitutional right. See Saucier v.
Katz, 533 U.S. 194, 201, 121 S. Ct. 2151, 2156 (2001). If
the answer is no, the inquiry is over because the defendant is entitled to qualified immunity. If the answer
is yes, the second question is whether the constitutional right at issue was clearly established. Id.
Jackson claims that Defendants violated his First,
Fourth, Fifth, Eighth, and Fourteenth Amendment
rights by means of an illegal seizure, excessive force
and silencing “his disagreement with the company or
employees of the company that serviced his truck.”2 For
reasons that follow, the Court finds an absence of genuine controversy regarding these claims.

2

ECF No. 1, ¶ 45.

App. 39
Applicable Constitutional Provision
Jackson’s references to the Fifth, Eighth, and
Fourteen Amendments are misplaced. First, while the
particular rights contained in the Bill of Rights apply
to the States through the Fourteenth Amendment, the
Fifth Amendment’s Due Process Clause applies exclusively to federal government action, which is not at
issue in this case. Second, neither the Eighth Amendment nor the Fourteenth Amendment’s Due Process
Clause provide a remedy for Jackson’s illegal seizure
and excessive force claims. Jackson’s allegations place
him outside the protections of the Eighth Amendment’s proscription against cruel and unusual punishment, which applies only to convicted prisoners. Hott v.
Hennepin County, 260 F.3d 901, 905 (8th Cir. 2000).
Likewise, the substantive portion of the Due Process
Clause has no application in this case. “Where a particular amendment provides an explicit textual source
of constitutional protection against a particular sort of
government behavior, that Amendment, not the more
generalized notion of substantive due process, must be
the guide for analyzing these claims.” Graham v. Connor, 490 U.S. 386, 395 (1989). When an officer allegedly
uses excessive force in the course of an investigatory
stop or an arrest, the text of the Fourth Amendment,
which addresses unreasonable searches and seizures,
provides the pertinent source of constitutional protection. Id. If a plaintiff cannot prevail under the Fourth
Amendment’s standards, “it is a certainty he cannot
win it under the seemingly more burdensome, and
clearly no less burdensome, [shock-the-conscience]

App. 40
standard that must be met to establish a Fourteenth
Amendment substantive due process claim.” Wilson v.
Spain, 209 F.3d 713, 716 (8th Cir. 2000).
Illegal Seizure. The Fourth Amendment guarantees “the right of the people to be secure in their persons, houses, papers, and effects, against unreasonable
searches and seizures,” and it generally requires probable cause for lawful searches and seizures. U.S. Const.
amend. IV; Katz v. United States, 389 U.S. 347, 357
(1967). However, “[t]he Fourth Amendment does not require a policeman who lacks the precise level of information necessary for probable cause to arrest to simply
shrug his shoulders and allow a crime to occur or a
criminal to escape.” Adams v. Williams, 407 U.S. 143,
145-46, 92 S. Ct. 1921, 1923 (1972). “On the contrary,
Terry recognizes that it may be the essence of good police work to adopt an intermediate response.” Id. (citing Terry v. Ohio, 392 U.S. 1, 21-22, 88 S. Ct. 1868,
1879-80 (1968)).
Jackson contends that Stair committed an illegal
seizure when he ordered him to turn around and face
the patrol car. Accepting that Stair effected a seizure
at that point, he was permitted to take such steps as
were reasonably necessary to protect his personal
safety and maintain the status quo during the course
of his investigation. See United States v. Jones, 759
F.2d 633, 638 (8th Cir. 1985). Stair had been called to
the scene of a physical disturbance in progress, and
given the volatile circumstances, he took reasonable

App. 41
measures to stabilize the situation and retain the status quo.
Excessive Force. All claims that law enforcement
officials have used excessive force in the course of an
arrest, investigatory stop, or other seizure of a free citizen should be analyzed under the Fourth Amendment
and its objective, reasonableness standard. Graham v.
Conner, 490 U.S. 386, 395, 109 S. Ct. 1865 (1989). The
test is whether the amount of force used was objectively reasonable under the particular circumstances
that confronted law enforcement officers. See Littrell v.
Franklin, 388 F.3d 578, 583 (8th Cir.2004) (quoting
Greiner v. City of Champlin, 27 F.3d 1346, 1354 (8th
Cir.1994)). Relevant circumstances include the threat
posed by the subject, the severity of the crime, and
whether the suspect resisted arrest. Foster v. Metro.
Airports Com’n, 914 F.2d 1076, 1082 (8th Cir.1990).
Force that later seems unnecessary does not violate
the Fourth Amendment if it was reasonable at the
time. “The calculus of reasonableness must embody allowance for the fact that police officers are often forced
to make split-second judgments—in circumstances
that are tense, uncertain, and rapidly evolving—about
the amount of force that is necessary in a particular
situation.” Graham v. Connor, 490 U.S. 386, 396-97,
109 S. Ct. 1865, 1872 (1989).
The undisputed evidence shows that Stair attempted to subdue Jackson with verbal commands and
warnings, but to no avail. Jackson remained loud and
confrontational during the entire incident. He refused
to follow instructions, he put his hand in his pocket

App. 42
after Stair instructed him otherwise, and he raised his
arm and hand toward Harness. Faced with these circumstances, a reasonable officer in Stair’s position
would reasonably perceive that the extent of force employed was reasonably necessary.
First Amendment. Jackson cites the First
Amendment in his complaint, alleging that he “had a
right to state and otherwise express his disagreement
with the company or employees of the company that
serviced his truck.”3 And in opposition to Stair’s motion
for summary judgment, Jackson argues:
Defendants’ initial decision to escalate the encounter, use force, and seize his person was
wholly based on his speech. Jackson’s speech
was not even directed toward the shop personnel. Rather, it was an explanation of the situation directed to Officer Stair, who asked
about the situation. Maybe he did not want
the answer Jackson gave. Regardless, Jackson
was initially seized because of his protected
speech. Maybe, speech combined with his
presence.4
To establish a claim that Stair seized Jackson and
used force against him because of his speech, a First
Amendment retaliation claim, Jackson must show: (1)
that he engaged in a protected activity, (2) that Stair
took adverse action against him that would chill a person of ordinary firmness from continuing in the
3
4

ECF No. 1, ¶ 45.
ECF No. 29, at 13.

App. 43
activity, and (3) that the adverse action was motivated
at least in part by the exercise of the protected activity.
Bennie v. Munn, 822 F.3d 392, 397 (8th Cir. 2016), cert.
denied, 137 S. Ct. 812, 196 [sic] (2017), and cert. denied,
137 S. Ct. 814 (2017). The record is void of evidence
that Stair’s actions were aimed at silencing Jackson,
who continued to express himself loudly throughout
the entire encounter. Instead, Jackson took reasonable
measures to prevent violence and calm a tense situation, and his actions were in response to Jackson’s conduct, not the content of his speech. Even assuming that
Stair’s intervention somehow limited Jackson’s ability
to express himself, Stair was carrying out legitimate
police functions and the incidental impact on Jackson’s
speech was no more than necessary.
In sum, the Court finds that Jackson has failed to
present an issue for trial regarding a constitutional violation. Jackson is entitled to qualified immunity and
summary judgment in his favor on Jackson’s claims
under § 1983 and the ACRA.5
Arkansas Crime Victim Statute
Arkansas’s crime victims civil liability statute,
Ark. Code Ann. § 16-118-107, provides a civil cause of
5

The Arkansas Civil Rights Act (ACRA) specifically provides
that a court may look for guidance to state and federal decisions
interpreting the federal Civil Rights Act, see Ark. Code Ann. § 16123-105(c), and the Arkansas Court of Appeals has relied on federal precedent to analyze an excessive-force claim under the
ACRA. See Martin v. Hallum, 2010 Ark. App. 193, 374 S.W.3d
152 (2010).

App. 44
action to “[a]ny person injured or damaged by reason
of conduct of another person that would constitute a
felony under Arkansas law.” Jackson asserts that he is
entitled to relief under this provision because Stair’s
use of a Taser would constitute a felony under Arkansas law. Stair notes, correctly, that Jackson has failed
to come forward with evidence demonstrating that his
conduct was felonious under Arkansas law. A conviction for felony battery in Arkansas requires proof that,
with the purpose of causing serious physical injury,
Jackson inflicted serious physical injury. See Ark. Code
Ann. §§ 5-13-201 & 202. No such evidence exists in this
case, and the Court finds no issues for trial on this
claim.
IV.

City’s Motion for Summary Judgment

It is well settled that a plaintiff may establish municipal liability under § 1983 by proving that his or her
constitutional rights were violated by an “action pursuant to official municipal policy” or misconduct so pervasive among non-policymaking employees of the
municipality “as to constitute a ‘custom or usage’ with
the force of law.” Ware v. Jackson County, Mo., 150 F.3d
873, 880 (8th Cir. 1998) (quoting Monell v. Dep’t of Social Servs. of the City of New York, 436 U.S. 658, 691
(1978)).
“Official policy involves ‘a deliberate choice to follow a course of action . . . made from among various
alternatives’ by an official who [is determined by state
law to have] the final authority to establish

App. 45
governmental policy.” Id. (quoting Jane Doe A. v. Special Sch. Dist, 901 F.2d at 642, 645 (8th Cir. 1990)).
Alternatively, “custom or usage” is demonstrated by:
(1) the existence of continuing, widespread, persistent
pattern of unconstitutional misconduct by the governmental entity’s employees; (2) deliberate indifference
to or tacit authorization of such conduct by the governmental entity’s policymaking officials after notice to
the officials of that misconduct; and (3) the plaintiff ’s
injury by acts pursuant to the governmental entity’s
custom, i.e., proof that the custom was the moving force
behind the constitutional violation. Id. (quoting Jane
Doe A., 901 F.2d at 646).
Jackson fails to allege facts or provide any evidence to support a claim for municipal liability. Furthermore, when alleged conduct does not deprive a
plaintiff of a federally protected right, which is the case
here, an attendant § 1983 claim against a municipal
employer for causing the conduct must fail. See Olinger
v. Larson, 134 F.3d 1362, 1367 (8th Cir. 1998) (“In light
of our ruling that Detective Larson and Chief Satterlee
did not violate Olinger’s fourth amendment rights,
Olinger’s claims against the City . . . must also fail.”);
Abbot v. City of Crocker, 30 F.3d 994, 998 (8th Cir. 1994)
(“The City cannot be liable . . . whether on a failure to
train theory or a municipal custom or policy theory,
unless [an officer] is found liable on the underlying
substantive claim.”); Kohl v. Casson, 5 F.3d 1141, 1148
(8th Cir. 1993) (holding that because defendant officers
possessed probable cause to obtain an arrest warrant,
no basis for liability existed for the city or county).

App. 46
Accordingly, no issues for trial exist as to claims
against the City.
V.

Jacksonville Police Department

The City moves for dismissal of claims against the
Jacksonville Police Department on the ground that the
department is not a suable entity. The capacity to sue
or be sued is determined by the law of the state in
which the district court is held. See Fed. R. Civ. P. 17(b).
Under Arkansas law, political subdivisions, including
cities, are empowered to sue and be sued, see Ark. Code
Ann. § 14-54-101, but police departments are merely
divisions or departments of political subdivisions,
without the capacity to sue or be sued. See Ketchum v.
City of West Memphis, Ark., 974 F.2d 81, 81 (8th
Cir.1992) (“The West Memphis Police Department and
West Memphis Paramedic Services are not juridical
entities suable as such. They are simply departments
or subdivisions of the City government.”).
The Court agrees that the Jacksonville Police Department is not subject to suit and must be dismissed
as a party to this action.
VI.

Conclusion

For the reasons stated, Defendants’ motions for
summary judgment [ECF Nos. 19, 22] are GRANTED.
There being no issues for trial, pursuant to the judgment entered together with this order, this action is
DISMISSED WITH PREJUDICE.

App. 47
IT IS SO ORDERED THIS 12TH DAY OF
MARCH, 2018.
/s/Susan Webber Wright
UNITED STATES DISTRICT JUDGE

App. 48
IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
WESTERN DIVISION
CHARLES JACKSON
PLAINTIFF
V.
BILLY D. STAIR, III, ET AL.
DEFENDANTS

*
*
* CASE NO.
* 4:16CV00533 SWW
*
*

JUDGMENT
Consistent with the Order that was entered on
this day, it is CONSIDERED, ORDERED, and ADJUDGED that this action is DISMISSED WITH PREJUDICE.
IT IS SO ORDERED THIS 12TH DAY OF
MARCH, 2018.
/s/Susan Webber Wright
UNITED STATES DISTRICT JUDGE

App. 49
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-2617
Charles Jackson
Appellant
v.
Billy D. Stair, III, individually and in his official
capacity with Jacksonville Police Department, et al.
Appellees
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Appeal from U.S. District Court for the
Eastern District of Arkansas – Little Rock
(4:16-cv-00533-SWW)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

ORDER
(Filed Mar. 26, 2020)
The petition for rehearing en banc is denied. The
petition for panel rehearing is also denied.
Judge Colloton would grant the petition for rehearing en banc. Judge Loken joins.
COLLOTON, Circuit Judge, with whom LOKEN, Circuit Judge, joins, dissenting from denial of rehearing
en banc.
Four judges have considered whether Officer Stair
used reasonable force in apprehending appellant Jackson. Two judges (the district judge and the dissenting
panel judge) concluded that the force was reasonable

App. 50
under the Fourth Amendment; two judges (the panel
majority) concluded that the force was unreasonable.
Jackson v. Stair, 944 F.3d 704 (8th Cir. 2019). Yet the
panel majority did not merely decide the reasonableness issue in a way that “promotes the development of
constitutional precedent.” Pearson v. Callahan, 555
U.S. 223, 236 (2009). The panel opinion went further on
the question of qualified immunity and concluded that
a contrary conclusion about reasonableness was so
clearly wrong that the issue was “beyond debate.” 944
F.3d at 711 (quoting Aschroft v. al-Kidd, 563 U.S. 731,
741 (2011)). Under qualified immunity doctrine, therefore, the panel decision necessarily determined that a
police action deemed constitutionally reasonable by
the district judge and the dissenting panel judge would
have been undertaken by only “the plainly incompetent or those who knowingly violate the law.” Malley v.
Briggs, 475 U.S. 335, 341 (1986). I would rehear the
case “to secure and maintain uniformity of the court’s
decisions.” Fed. R. App. P. 35(b)(1)(A).
Qualified immunity has been a point of emphasis
for the Supreme Court over the last decade, particularly in cases involving alleged use of excessive force
by police officers. In 2017, the Court explained that, in
the preceding five years, it had issued a number of
opinions reversing federal courts in qualified immunity cases. White v. Pauly, 137 S. Ct. 548 (2017) (per curiam); see City and County of San Francisco v. Sheehan,
135 S. Ct. 1765, 1774 n.3 (2015) (collecting cases). This
was “necessary both because qualified immunity is
important to society as a whole, and because as an

App. 51
immunity from suit, qualified immunity is effectively
lost if a case is erroneously permitted to go to trial.”
White, 137 S. Ct. at 551 (internal quotations omitted).
The Court’s attention to this topic, and the string of
reversals, continued in the last two years. City of Escondido v. Emmons, 139 S. Ct. 500 (2019) (per curiam);
Kisela v. Hughes, 138 S. Ct. 1148 (2018) (per curiam).
The Eighth Circuit thus far has avoided reversal in a
qualified immunity case, although it may be noteworthy that no petition for writ of certiorari was filed from
several divided panel decisions. E.g., Robinson v. Hawkins, 937 F.3d 1128 (8th Cir. 2019); Z.J. ex rel. Jones v.
Kansas City Bd. of Police Comm’rs, 931 F.3d 672 (8th
Cir. 2019); Michael v. Trevena, 899 F.3d 528 (8th Cir.
2018); Hoyland v. McMenomy, 869 F.3d 644 (8th Cir.
2017); Duffie v. City of Lincoln, 834 F.3d 877 (8th Cir.
2016); Atkinson v. City of Mountain View, 709 F.3d
1201 (8th Cir. 2013); Johnson v. Carroll, 658 F.3d 819
(8th Cir. 2011).
The Supreme Court has enunciated several principles that should guide a court in evaluating qualified
immunity in a case involving alleged use of excessive
force:
•

The Court “has repeatedly told courts . . . not
to define clearly establish law at a high level
of generality.” Emmons, 139 S. Ct. at 503 (emphasis added) (internal quotation omitted);
Kisela, 138 S. Ct. at 1152; District of Columbia
v. Wesby, 138 S. Ct. 577, 590 (2018); White, 137
S. Ct. at 552; Mullenix v. Luna, 136 S. Ct. 305,
308 (2015) (per curiam); Sheehan, 135 S. Ct.

App. 52
at 1775-76; Plumhoff v. Rickard, 572 U.S. 765,
779 (2014); Reichle v. Howards, 566 U.S. 658,
665 n.5 (2012); al-Kidd, 563 U.S. at 742.
•

“The dispositive question is whether the violative nature of the particular conduct is
clearly established.” Ziglar v. Abbasi, 137
S. Ct. 1843, 1866 (2017) (internal quotation
omitted); Mullenix, 136 S. Ct. at 308; al-Kidd,
563 U.S. at 742.

•

“[S]pecificity is especially important in the
Fourth Amendment context, where . . . it is
sometimes difficult for an officer to determine
how the relevant legal doctrine, here excessive force, will apply to the factual situation
the officer confronts.” Emmons, 139 S. Ct. at
503 (emphasis added) (internal quotation
omitted); Kisela, 138 S. Ct. at 1152-53; Mullenix, 136 S. Ct. at 308.

•

“Use of excessive force is an area of the law in
which the result depends very much on the
facts of the case, and thus police officers are
entitled to qualified immunity unless existing
precedent squarely governs the specific facts at
issue.” Emmons, 139 S. Ct. at 503 (emphasis
added) (internal quotations omitted); Kisela,
138 S. Ct. at 1153.

All of these propositions were discussed and applied in this court’s recent en banc decision in Kelsay v.
Ernst, 933 F.3d 975 (8th Cir. 2019) (en banc), albeit
with four judges dissenting. None of the propositions is
even mentioned by the panel majority.

App. 53
Officer Stair deployed a taser device three times to
subdue Jackson after he refused to comply with commands and raised his fist toward another police officer’s head. The panel majority ruled that the first and
third deployments were reasonable, but that the second deployment was unreasonable and violated a
clearly established right of Jackson. The panel opinion
cited no comparable decision involving application of a
taser against a non-compliant subject who threatened
use of force against a police officer, and no decision
holding that a subject’s “momentary post-tasered position on the ground” requires an officer to consider it “a
clearly punctuated interim of compliance” that makes
another use of the taser unreasonable under the
Fourth Amendment. See 944 F.3d at 714 (Wollman, J.,
dissenting).
Instead, to justify reversing the district court’s
grant of qualified immunity, the panel majority reasoned that “‘general constitutional principles against
excessive force’ are enough to create a clearly established right and to put a reasonable officer on notice
that a particular tasing was excessive.” 944 F.3d at 713
(quoting Shekleton v. Eichenberger, 677 F.3d 361, 367
(8th Cir. 2012)). The opinion does not attempt to reconcile its reliance on “general constitutional principles”
with the rule that clearly established law should not
be defined at “a high level of generality.”
The panel opinion also relied on decisions involving different legal inquiries or materially different circumstances that do not squarely govern the specific
facts of this case. One authority, Brown v. City of

App. 54
Golden Valley, 574 F.3d 491, 496 (8th Cir. 2009), held
that use of a taser against a “seat-belt restrained passenger cowering in her automobile” was unreasonable.
See Rudley, 935 F.3d at 654. The panel cited Smith v.
Conway County, 759 F.3d 853 (8th Cir. 2014), which examined—under the Eighth Amendment—a taser shot
fired as a “corporal inducement” against a nonviolent
detainee who was in pain, seeking medical assistance,
and attempting to comply with a jailer’s orders. Id.
at 860. The opinion referenced Shekleton, which addressed an officer’s use of a taser against a compliant,
nonviolent, nonfleeing misdemeanant after the officer
unsuccessfully sought to handcuff the suspect and the
two men accidentally fell to the ground. 677 F.3d at
366-67; see Kelsay, 933 F.3d at 980. And the panel majority relied on two decisions—Shannon v. Koehler, 616
F.3d 855 (8th Cir. 2010), and Montoya v. City of Flandreau, 669 F.3d 867 (8th Cir. 2012)—that did not even
involve deployment of a taser, much less the question
whether the Fourth Amendment forbids two fivesecond deployments of a taser to subdue a rage-filled
subject who threatens force against an officer.*

* In a footnote, the panel opinion suggests that its holding is
supported by the fact that “an internal department review of the
tasing incident resulted in a reprimand of Officer Stair.” 944 F.3d
at 713 n.4. Stair’s supervisor, however, reasoned only from a high
level of generality that the second application of the taser was
unreasonable under the standard of Graham v. Connor, 490 U.S.
386 (1989). Whatever the merit of that conclusion, the supervisor
did not purport to apply the law of qualified immunity. See R. Doc.
33-1.

App. 55
Whether the panel’s reasoning is consistent with
the Supreme Court’s admonitions—including that
clearly established law should not be defined “at a high
level of generality,” and that “police officers are entitled
to qualified immunity unless existing precedent
squarely governs the specific facts at issue,” Emmons,
139 S. Ct. at 503—is a matter that warrants further
review.
-----------------------------------------------------------------------

March 26, 2020
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
__________________________
/s/ Michael E. Gans

App. 56
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-2617
Charles Jackson
Appellant
v.
Billy D. Stair, III, individually and in his official
capacity with Jacksonville Police Department, et al.
Appellees
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Appeal from U.S. District Court for the
Eastern District of Arkansas – Little Rock
(4:16-cv-00533-SWW)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

ORDER
The court’s order of December 6, 2019 is vacated
and the following amended order issued.
The court’s order of November 8, 2019 is amended
as follows:
Appellee’s petition for rehearing by the panel has
been considered by the Court and is granted. The opinion and judgment of this Court filed on September 12,
2019, are vacated. The petition for rehearing en banc
is moot.
December 09, 2019

App. 57
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
__________________________
/s/ Michael E. Gans

App. 58
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-2617
Charles Jackson
Appellant
v.
Billy D. Stair, III, individually and in his official
capacity with Jacksonville Police Department, et al.
Appellees
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Appeal from U.S. District Court for the
Eastern District of Arkansas – Little Rock
(4:16-cv-00533-SWW)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

AMENDED ORDER
Appellee’s petition for rehearing by the panel has
been considered by the Court and is granted. The opinion and judgment of this Court filed on September 12,
2019, are vacated. The petition for rehearing en banc
is moot.
December 06, 2019
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
__________________________
/s/ Michael E. Gans

